No. 19-296
In The

Supreme Court of the United States
DAMIEN GUEDES; SHANE RODEN; FIREARMS POLICY
FOUNDATION, a non-profit organization; MADISON
SOCIETY FOUNDATION, INC., a non-profit organization;
FLORIDA CARRY, INC., a non-profit organization; DAVID
CODREA; SCOTT HEUMAN; and OWEN MONROE,
Petitioners,
v.
BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND
EXPLOSIVES; WILLIAM P. BARR, in his official capacity
as Attorney General of the United States; REGINA
LOMBARDO, in her official capacity as Acting Deputy
Director; and the UNITED STATES OF AMERICA,
Respondents.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the District of Columbia Circuit
REPLY IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI
JOSHUA PRINCE
ADAM KRAUT
CIVIL RIGHTS DEFENSE
FIRM, P.C.
646 Lenape Road
Bechtelsville, PA 19505
(610) 845-3803
Joshua@Princelaw.com

ERIK S. JAFFE
(Counsel of Record)
GENE C. SCHAERR
SCHAERR | JAFFE LLP
1717 K Street, NW
Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffe.com

ALAN ALEXANDER BECK
LAW OFFICE OF ALAN BECK
2692 Harcourt Drive
San Diego, CA 92123
(615) 905-9105
alan.alexander.beck@gmail.com

STEPHEN D. STAMBOULIEH
STAMBOULIEH LAW, PLLC
P.O. Box 4008
Madison, MS 39130
(601) 852-3440
stephen@sdslaw.us

TABLE OF CONTENTS
Table of Contents .......................................................... i
Table of Authorities ..................................................... ii
I. The Decision Below Incorrectly Applies
Chevron Deference Rather than the Rule of
Lenity to a Criminal Statute that also Has
Administrative Application. .................................. 2
II. The Decision Below Incorrectly Holds that
the Government May Not Waive Chevron
Deference. ............................................................... 9
III.If Chevron Deference Applies and Cannot
Be Waived by the Government, Chevron
Should Be Overruled. ........................................... 11
Conclusion .................................................................. 11

ii

TABLE OF AUTHORITIES
Cases
Abramski v. United States, 573 U.S. 169
(2014) ...................................................................... 8
Babbitt v. Sweet Home Chapter, 515 U.S. 687
(1995) ...................................................................... 8
Caetano v. Massachusetts, 136 S. Ct. 1027
(2007) ...................................................................... 9
Gutierrez-Brizuela v. Lynch, 834 F.3d 1142
(10th Cir. 2016) ...................................................... 2
McNally v. United States, 483 U.S. 350 (1987) ........ 7
United States v. Apel, 571 U.S. 359 (2014) ............... 8
Whitman v. United States, 135 S. Ct. 352
(2014) .................................................................. 2, 8
Statutes
26 U.S.C. § 5845(b) .................................................... 7

The government effectively concedes the importance of the questions presented, opting instead
for a peculiar strategy somewhere between a crosspetition and a claim of, in effect, harmless error. All
parties seem to agree that the decision below is fatally flawed and cannot be sustained on its own terms.
But the government’s audacious conclusion that certiorari should be denied and the result (and precedent) allowed to stand borders on the absurd. Indeed,
had the court of appeals merely flipped a coin to
reach the same result, the government’s arguments
would sound the same.
If, after the questions presented are resolved, the
government thinks it has alternative grounds to sustain the Final Rule, it will have ample opportunity to
press such arguments on remand. Not a single judge
in this case accepted those arguments and all found
the statutory language at best ambiguous or at worst
contrary to the government’s new interpretation.
While the government is welcome to its unwarranted
optimism, it is not reasonable to ask this Court effectively to affirm on alternative grounds in the first instance without full briefing and without the lower
courts first having considered the issues under the
proper legal framework.
The questions presented in the Petition go not to
the ultimate interpretation of the statutory language
at issue, but the method by which such language will
be interpreted – whether under Chevron deference,
the rule of lenity, or otherwise. Once the methodological questions are resolved the case can be remanded
for further proceedings in accordance with that methodology. At worst the government’s refusal to defend

2

the decision below supports a GVR or summary reversal. But given the importance and broad applicability of the Chevron holdings below, plenary review
is the better choice.
I.

The Decision Below Incorrectly Applies
Chevron Deference Rather than the Rule of
Lenity to a Criminal Statute that also Has
Administrative Application.
As noted in the Petition, at 14, the decision below
applying Chevron deference to the mixed criminal
and civil statutes at issue here conflicts with numerous decisions of this Court. Indeed, the government
agrees that Chevron should not have been applied in
this case. BIO 14. And it does not dispute that
whether to apply Chevron to agency construction of
mixed criminal-civil statutes is an important issue
worthy of this Court’s attention. Pet.13-14. Justices
Scalia and Thomas expressly said as much in their
opinion in Whitman v. United States, 135 S. Ct. 352,
353 (2014) (Scalia, J, joined by Thomas, J., statement
respecting denial of certiorari). And then-Judge Gorsuch in Gutierrez-Brizuela v. Lynch, 834 F.3d 1142,
1156 (10th Cir. 2016) (Gorsuch, J., concurring), likewise recognized that deference does not apply to
agency interpretations of a criminal statute.
The only arguments the government makes that go
to whether this case is cert. worthy are its claims that
this is not a suitable vehicle because the questions
supposedly are abstract and hypothetical, are not
squarely presented, and do not address the final merits of the statutory construction. The first two are
wrong and none are grounds for denying certiorari.

3

First, contrary to the government’s suggestions,
BIO 13, the questions presented are not abstract.
Both courts below expressly held that the statute was
ambiguous and thus relied on Chevron to sustain the
Final Rule. Pet. 6, 8. Indeed, notwithstanding the
government’s claim that it would rather lose than rely on deference, Pet. 7; Pet. App. 36 (citing oral argument), the panel forced the issue, suggesting that
it could not have reached its result in any other manner. Given that express and laborious application of
Chevron by the court of appeals, with no alternative
grounds offered, the questions would seem the exact
opposite of “abstract.”
Second, that the government will not defend the
decision below, but remains content to keep the outcome without further review, BIO 14, is no reason to
deny certiorari. Declining review precisely because
the government agrees the panel decision is wrong is
perverse at best and creates perverse incentives for
the government to refuse to defend doubtful victories
to insulate them from review. If the government will
not defend the decision below, it should either acquiesce to a GVR or summary reversal or step aside and
let an appointed amicus do what it can to defend the
decision below. But for the government to abandon
decades of public and agency understanding of a
criminal statute, take or destroy millions of dollars in
property, threaten potential felony sanctions against
hundreds of thousands of people, and then seek to
keep the result from a decision it refuses to defend offends the most fundamental notions of fairness and
due process.

4

Third, the procedural posture of this case – appeal
from denial of a preliminary injunction – also is no
barrier to review. Both decisions below were based
entirely on questions of law, not on any uncertain
probabilities or discretionary issues bearing upon
whether to grant a preliminary injunction. Waiting
for a final judgment where the district and circuit
courts have already given their views on the legal
merits just introduces delay with no benefit. While
the appeal is technically interlocutory, BIO 14, 20, it
raises none of the concerns of interlocutory review.
Indeed, the government does not suggest otherwise
and is simply throwing phrases against the wall to
see if anything will stick in order to avoid review.
Given the existing precedent and law of the case, it
is difficult to imagine the courts below adding anything meaningful before entering final judgment.
The government’s alternative grounds not already rejected will never be litigated because they are currently unnecessary, and Petitioners will have no opportunity to properly savage the government’s misleading statutory interpretation and application.
Without removing Chevron from the equation, the
courts below will avoid taking a hard look at the text,
history, and application of the statutory language,
and will do nothing to correct their flawed decisions.
Fourth, the government’s claim, at 14-19, that
there is no conflict on the ultimate interpretation of
the law is cynical misdirection. The courts below did
not hold that the government was correct in its interpretation, merely that it was a permissible interpretation of an ambiguous statute. That methodological
approach was necessary to the decisions below. It is

5

optimistic, at best, to speculate that the decisions
would have been the same without Chevron. The
current conflict presented by this case involves methodology, not outcome. The issue is important regardless whether other courts eventually reach the same
result under a different approach.
Furthermore, as noted in the Petition, at 24-25,
the issues are important regardless whether the
courts of appeals are uniform in their error. The
more meaningful conflict is with decisions of this
Court on Chevron, lenity, and delegation. How this
case ultimately will be decided under proper legal
principles is a question for remand, not for speculation at the petition stage.
Fifth, the government’s suggestion, at 20, that this
Court wait for other cases hopefully to endorse its interpretation without relying on Chevron is again a
cynical tactic to preserve a fatally flawed decision
reaching the government’s preferred result. Regardless how such other cases came out, it would do nothing to alter the decision below, the grounds given by
the court of appeals, or the importance of the questions presented. 1
While the government did not want Chevron deference, the court of appeals applied it anyway, presumably because it thought it could not reach its result
otherwise. That the government disagrees with the
application of Chevron for its own reasons and imagiThat the government managed to persuade a single judge in
Utah to endorse its construction without Chevron, BIO 19, but
has failed to do so anywhere else, is no reason to deny cert. Both
courts and all four judges below rejected the government’s claim
that the Final Rule applied the plain meaning of the statute.
1

6

nes that it could win on different grounds does not
bear upon the certiorari decision. This Court reviews
numerous cases where the prevailing party thinks it
could win under a different rule – challenges to jury
instructions, pleading standards, burdens of proof,
and more. Such parties might even be proven right
and prevail again on remand. But that possibility
does not alter the importance of procedural questions
or whether they are genuinely presented merely because the ultimate result will be decided on remand.
And it does not require the Court to “assume” anything beyond what the courts below expressly held.
This case is a far cry from involving harmless error,
and the government sensibly avoids making that express claim. But that surely is the false implication
of its argument. If the government is correct that the
issues are not properly presented because Chevron
does not apply for other reasons rejected by the court,
and that it would win anyway under a Chevron-free
analysis, then the proper approach would be for it to
acquiesce in a GVR or summary reversal, not seek
denial of certiorari. 2
While the Court need not revisit the rulings below that the
statute is ambiguous, the government’s contention to the contrary borders on the frivolous and Petitioners stand more than
ready to address those issues should the Court wish to add a
further question. For now, it should be enough to note that several generations of Treasury and ATF officials, including those
who are experts in firearms, interpreted the definition of “machine gun” far more narrowly than the Final Rule’s revisionism.
Saying that they were wrong or confused only proves the ambiguity, it does not refute it. Indeed, to this day, even the government’s own description reflects that in order to fire multiple
shots with a “bump-stock” the trigger must “function” more than
a single time. BIO 5-6. One of the central linguistic fights is
2

7

Sixth, the government’s suggestion, at 28-29, that
the conflict with the rule of lenity is contrived and
that lenity would not apply anyway, is meritless. Petitioners squarely raised the rule of lenity and the
courts below rejected it by prioritizing Chevron deference. No judge said that lenity would not apply regardless, and the government’s argument that there
is insufficient ambiguity is frivolous. Certainly, a
statute supposedly misinterpreted by the ATF for
over 80 years qualifies as sufficiently ambiguous to
trigger the rule of lenity. Whether the test is gross
ambiguity as the government asserts, or the more
straight-forward test of whether “there are two rational readings of a criminal statute, one harsher
than the other,” the statute here would trigger the
rule. See McNally v. United States, 483 U.S. 350,
359-60 (1987) (“when there are two rational readings
of a criminal statute, one harsher than the other, [the
Court is] to choose the harsher only when Congress
has spoken in clear and definite language”).
In any event, such objections to applying the rule
of lenity remain available to the government on renot, as the government suggests, whether one “pulls,” “pushes,”
or “bumps” the trigger to make it “function,” but rather whether
such event happening over and over for every shot fired entails
more than a “single function of the trigger.” 26 U.S.C. § 5845(b).
A bump-stock only facilitates the release of the trigger, BIO 6;
each subsequent pull or bump is caused by the individual pushing the trigger into his or her stationary finger. Each “single”
function of the trigger ends when the trigger is released. The
next pulls or bumps of the trigger are simply the second and
subsequent functions of the trigger. None of this, however, need
give the Court pause, as it can all be litigated on remand under
the proper standards. Suffice it to say the government’s confidence in the strength of its interpretation is wildly overblown.

8

mand and will hopefully get the reception they deserve. But the refusal of the courts below even to
consider the application of the rule of lenity because
they opted for Chevron instead is more than sufficient
to present the issue and is far from “contrived.”
Seventh, the suggestion, at 29-30, that there is no
conflict with this Court’s lenity or non-deference cases is incorrect. Judge Henderson expressly recognized that United States v. Apel, 571 U.S. 359, 369
(2014), Abramski v. United States, 573 U.S. 169, 191
(2014), and other cases supported rejecting Chevron
here. App. A79-A82. Indeed, the government itself
cited Apel in the district court and in other cases in
order to explain its rejection of deference. The government’s attempt to distinguish these and other of
this Court’s cases as not involving agency rulemaking
seems to miss the point that non-deference and lenity
apply to criminal or dual-use statutes, regardless of
how the government seeks a broader interpretation of
ambiguous language. Judge Henderson recognized as
much and Justices Scalia and Thomas in Whitman,
135 S. Ct. at 353-54, likewise identified the exact
same cases as conflicting with court of appeals decisions applying Babbitt v. Sweet Home Chapter, 515
U.S. 687, 704 n. 18 (1995).
Furthermore, a conflict does not require a decision
of this Court exactly on all fours on these issues.
That the courts of appeals continue to apply Babbitt
rather than this Court’s non-deference and lenity
cases is precisely why review is needed to address
those conflicting lines of precedent. Demanding a
more flagrant conflict would be overly restrictive and
allow only those cases where courts of appeals openly

9

displayed their rebellion against precedent. Cf. Caetano v. Massachusetts, 136 S. Ct. 1027, 1028 (2007)
(per curiam summary vacatur for expressly contradicting Supreme Court precedent). For the majority
of other cases, important issues arise in the spaces
between two conflicting lines of precedent that have
yet to be reconciled. This is one of those cases and
the need for review of these issues has been recognized in this Court and others.
Finally, the government’s closing hope that it can
get other courts to endorse its construction of the
statute without Chevron, BIO 30, does not negate the
importance of the questions presented here. The
court of appeals in this case relied on Chevron to
reach its result and there is ample reason to believe
that Judge Henderson’s view would have carried the
day without it. The error here was not harmless, and
the government’s backhanded suggestion that it
might have been is wishful thinking and a question
for remand, not for speculation at the cert. stage
II. The Decision Below Incorrectly Holds that
the Government May Not Waive Chevron
Deference.
The government says little about the second question other than to oddly suggest that waiver is not
implicated because Petitioners assume Chevron applied. BIO 28. That response imagines the decision
the government wishes it were defending rather than
the actual decision below. The court of appeals recognized that the Final Rule was a sea-change in how
the agency has read the statute not just regarding
bump-stocks but dating back many decades.

10

Pet. App. A31-A33. It was understandably incredulous that ATF miraculously discovered a plain meaning it had been getting “wrong” for decades. Pet. App.
A31-A33 (interpretive-rule theory “would mean that
bump-stock owners have been committing a felony for
the entire time they have possessed the devices” and
have “always” been felons, notwithstanding years of
government assurances to the contrary); Cf. Id. at
A66 (noting holding of prospective legislative rule
avoids any constitutional concerns that might attend
a retroactive reinterpretation).
Ultimately, however, this Court need not address
whether this was a legislative or interpretive rule –
the court below held that it was legislative, and the
government has not cross-petitioned. This Court
thus should just review the decision below as it is,
which squarely raises the questions presented. 3
If this Court agrees with Petitioners that Chevron
does not apply notwithstanding the panel’s view that
this was a legislative rule, then the government is returned to the position it claims to have wanted from
the outset – having its Final Rule measured against
the statute on its own merits with no Chevron thumb
on the scales. That is hardly cause for complaint
from the government. If this Court instead holds
that Chevron can apply to the Final Rule in this case,
then the question of waiver – or simply refusal to
acknowledge and intentionally exercise “legislative”
discretion – would be squarely presented. One would
Such a situation is hardly unusual, as this Court only grants
cert. on specific issues and routinely takes the other aspects of
the case as a given for purposes of addressing the issues properly raised and decided below.
3

11

think the Executive Branch would welcome having
the choice whether to avoid the separation of powers
concerns that an exercise of delegated legislative
power entails.
III. If Chevron Deference Applies and Cannot
Be Waived by the Government, Chevron
Should Be Overruled.
The many difficulties of the decision below, and
the aggressive use of Chevron to support a desired result in the criminal context where the government itself rejects deference, perhaps reflect the bigger question whether Chevron is a problematic doctrine and
poses an attractive nuisance. As noted in the Petition, at 30-33, and by many Justices, judges, and
commentators, it may be that the time has come to
reconsider Chevron outright. This case certainly
highlights the dangers of that doctrine. And the fact
that the government also finds so much to dislike in
the decision below highlights the morass that has
evolved in this area. Indeed, the decision below presents the issue it exactly the terms that makes the
doctrine so problematic: a delegation of legislative
discretion in an area presenting significant separation of powers concerns. Pet. 19-23.
If Chevron deference applies in the manner decided below, this Court should consider the more fundamental question whether such deference should exist at all.
CONCLUSION
For the reasons above, this Court should grant the
petition for a writ of certiorari. Alternatively, this

12

Court should summarily reverse and remand for further proceedings in which the government could
raise, and the courts below could rule on, its nonChevron-dependent arguments.
Respectfully submitted,
STEPHEN D. STAMBOULIEH
STAMBOULIEH LAW, PLLC
P.O. Box 4008
Madison, MS 39130
(601) 852-3440
stephen@sdslaw.us
ALAN ALEXANDER BECK
LAW OFFICE OF ALAN BECK
2692 Harcourt Drive
San Diego, CA 92123
(615) 905-9105
Alan.Alexander.beck@gmail.com

ERIK S. JAFFE
(Counsel of Record)
GENE C. SCHAERR
SCHAERR | JAFFE LLP
1717 K Street, NW
Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffe.com

JOSHUA PRINCE
ADAM KRAUT
CIVIL RIGHTS DEFENSE
FIRM, P.C.
646 Lenape Road
Counsel for Applicants David Bechtelsville, PA 19505
Codrea, Scott Heuman and Ow- (610) 845-3803
en Monroe
Joshua@Princelaw.com
Counsel for Applicants
Damien Guedes, Shane
Roden, Firearms Policy
Foundation,
Madison
Society Foundation, Inc.,
Florida Carry, Inc.
Dated: December 19, 2019

